audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant to the Kleberg County, Texas, Constable Precinct 4
GR-80-99-019
July 9, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a Universal Hiring Program (UHP) grant awarded by the Office of Community Oriented Policing Services to the Kleberg County, Texas, Constable Precinct 4.  The purpose of the grant is to enhance community policing.  Kleberg County Constable Precinct 4 was awarded $465,414 to hire six full-time deputy constables and three part-time deputy constables.

	We reviewed Kleberg County's compliance with seven essential grant conditions.  We found the grantee's hiring practices to be acceptable.  However, we found weaknesses in five other areas listed below.  As a result, the grant award amount is $129,659 over the amount allowable.

The salary and fringe benefits listed on the application and the OJP Financial Clearance Memorandum and paid to the officers were in excess of the actual entry-level salary and fringe benefits.

	The budgeted salaries and fringe benefits were not sufficient to fund the grant officers for more than 8 months.

	The local matching funds were approved for $25,000 for 8 months with the contingency that the Constable could prove to the County Commissioners' Court that the COPS-funded officers could generate the revenues to cover the match.  This stipulation does not appear in line with the intent of the grant.

	Kleberg County did not have a viable plan for retaining the nine officers funded under the UHP grant. 

	COPS-funded officers appear to be concentrating on drug interdiction as the main focus of their community policing efforts.  This activity is not listed specifically on the grant application as a community policing effort in which the grantee would be participating.  The grant had only been open for four months at the time of fieldwork; therefore, we could not determine if the community policing activities planned would be implemented.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in 
Appendix I.